Legal Printers,

LLC

202-747-2400
202-449*9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

October 1, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

In re William J. French and Sandra M. French

Dear Sir or Madam:
I hereby certify that at the request of the Petitioners, on October 1, 2021, I
caused service to be made pursuant to Rule 29 on the following counsel for the
Respondent:
RESPONDENT:
Mr. Timothy O'Driscoll, Esq.
Faegre, Drinker, Biddle & Reath LLP
One Logan Square
Suite 2000
Philadelphia, PA 19103
215-988-2757
timothyo'driscol^faegredrinker.com
This service was effected by depositing three copies of a Petition for a Writ of
Mandamus in an official “first class mail” receptacle of the United States Post Office
as well as by transmitting digital copies via electronic mail.
Sincerely,
■>

Jack Suber, Esq.
Principal

I RECEIVED
OCT - 5 2021
LISA KAY NICHOLSON
Notary Public
State of Maryland
Montgomery County
exp. October 12,2022

Sworn and subscribed before me this 1st day of October 2021.

